WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1786

Chicago Teachers

JOAnne Troesch & Ifeoma Nkemdi

(Petitioner)

Union, et al

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:

O

I

am

filing this waiver on behalf of all respondents

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Board of Education of the City of Chicago

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter

your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested. the response

O

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
6/29/21

Date:

(Type or print) Name Thomas Arthur Doyle

Mr.

OMs.

O Mrs.

O Miss

Firm

Board of Education of the City of Chicago, Law Department

Address

1N Dearborn Street, 9th Floor

City &State

Chicago, IL

Phone

773.553.1720

Zip

60602

Email tadoyle2@cps.edu

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Cc

William Messnger, Frank Garrison, & Joseph Morris (All Counsel for Petitioners); John West & Joshua
Shifrin (Counsel for Respondent CTU)

